H

No.

IN THE
SUPREME COURT OF THE UNITED STATES

CL^V\ fS

— PETITIONER
(Your Name)
VS.
— RESPONDENT(S)
PROOF OF SERVICE

, do swear or declare that on this date,
, 20§J_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing ,
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:

3^0

ftwevwf

^ K'Xoo'X.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

,2(fiL
(Signature)

